                                        OFFICE OF INSPECTOR GENERAL
                                                                MEMORANDUM




DATE:         December 22, 2003

TO:           Chairman

FROM:         Inspector General

SUBJECT:      Report on Audit of the E-rate Program at the Arlington Public Schools


The Office of Inspector General (OIG) has completed an audit at the Arlington Public
Schools, a beneficiary of the Universal Service Fund (USF). A copy of our audit report
no. 02-AUD-02-04-12, entitled “Report on Audit of the E-rate Program at the Arlington
Public Schools” is attached. The objective of this audit was to assess the beneficiary’s
compliance with the rules and regulations of the USF program and to identify areas in
which to improve the program.

We concluded that the Arlington Public Schools is compliant in most respects with the
requirements of the program for funding year 1999. However, the audit resulted in one
finding and $7,556 identified as a potential fund recovery. We recommend that the
Wireline Competition Bureau direct the Universal Service Administrative Company
(USAC) to recover $7,556. In addition, we recommend that the Wireline Competition
Bureau take steps to ensure that funding requests are adequately reviewed in accordance
with existing program rules and implementing procedures to ensure that funding requests
associated with this area of noncompliance with program rules and regulations are not
approved. Further, we recommend that the Wireline Competition Bureau review those
program rules and implementing procedures governing the area of noncompliance cited
in this report to ensure that those program rules and implementing procedures are
adequate to protect the interests of the fund.

We held an exit conference on October 28, 2003 with the beneficiary’s representatives,
and requested their comments on the results of the audit. They agreed with the auditor’s
position regarding the criteria for the finding, however, they would not concur with the
recommendation pending their further review of information we provided at the exit
conference. They have not provided any additional comments to this date.
We provided management with a copy of our draft audit report, dated November 25,
2003, and requested they provide comments on their concurrence with the findings of the
audit. In a response dated December 10, 2003, the Wireline Competition Bureau (WCB)
indicated that they concurred fully or in part with our three audit recommendations.
WCB’s response is included in its entirety in the Appendix to the report.

If you have any questions, please contact me or Thomas Cline, Assistant Inspector
General for Audit, at (202) 418-7890.




                                            H. Walker Feaster III

Attachment

Copy furnished:
      Diane Hellmuth, Director of Network Services, Arlington Public Schools
      George McDonald, Vice President, Schools and Libraries Division, USAC
      Chief, Wireline Competition Bureau
      Performance Evaluation and Records Management, Office of Managing Director
FEDERAL COMMUNICATIONS
      COMMISSION
  OFFICE OF INSPECTOR GENERAL




  Report on Audit of the E-rate Program at the
           Arlington Public Schools

          Report No. 02-AUD-02-04-12
              December 22, 2003
       Report on Audit of the E-rate Program at the Arlington Public Schools


                                Table of Contents


                                                                           Page


EXECUTIVE SUMMARY                                                              1


BACKGROUND INFORMATION                                                         2


AUDIT OBJECTIVES AND SCOPE                                                     2


AUDIT FINDING AND RECOMMENDATIONS                                              3


APPENDIX – Management Response
Report on Audit of the E-rate Program at the Arlington Public Schools

EXECUTIVE SUMMARY

On May 7, 1997, the FCC adopted a Universal Service Order implementing the
Telecommunications Act of 1996. Included in this Order was the Schools and Libraries
Support Mechanism of the USF (hereinafter known as the E-rate program) in which all
eligible schools and libraries can receive discounts from the USF on eligible
communication services ranging from 20 to 90 percent, depending on economic need and
location. The OIG has designed a program of audit oversight to provide FCC
management with a reasonable level of assurance that beneficiaries are complying with
program rules and that program controls are adequate to prevent fraud, waste and abuse.

The OIG has completed an audit of Arlington Public Schools. The objective of this audit
was to assess the beneficiary’s compliance with the rules and regulations of the USF
program and to identify areas in which to improve the program. Arlington Public
Schools is a school district that serves Arlington County, Virginia. The period of our
audit was for Funding Year (FY) 1999, covering July 1, 1999 to June 30, 2000. We
performed our audit at Arlington Public Schools, 1426 North Quincy Street, Arlington,
Virginia and visited three schools within Arlington.

Arlington’s FY 1999 commitments amount to $2,144,493, of which 51% was spent on
internal connections and 49% was spent on telecommunications services.

Our audit of the use of E-rate funds at Arlington Public Schools disclosed that the
beneficiary is compliant in most respects with the requirements of the program for
funding year 1999. However, the audit identified one area of noncompliance. One
hundred and ninety-five (195) pagers associated with a paging services contract were
identified as funded and paid for by SLD but were not compliant with the educational
purpose requirement of e-rate. The funding disbursed for these pagers was $7,556 and is
a potential funding recovery. We recommend that the Wireline Competition Bureau
direct the Universal Service Administrative Company (USAC) to recover $7,556. In
addition, we recommend that the Wireline Competition Bureau take steps to ensure that
funding requests are adequately reviewed in accordance with existing program rules and
implementing procedures to ensure that funding requests associated with this area of
noncompliance with program rules and regulations are not approved. Further, we
recommend that the Wireline Competition Bureau review those program rules and
implementing procedures governing the area of noncompliance cited in this report to
ensure that those program rules and implementing procedures are adequate to protect the
interests of the fund.

We held an exit conference on October 28, 2003 with the beneficiary’s representatives,
and requested their comments on the results of the audit. They agreed with the auditor’s
position regarding the criteria for the finding, however, they would not concur with the
recommendation pending their further review of information we provided at the exit
conference. They have not provided any additional comments to this date.


                                            1
Report on Audit of the E-rate Program at the Arlington Public Schools

We provided management with a copy of our draft audit report, dated November 25,
2003, and requested they provide comments on their concurrence with the findings of the
audit. In a response dated December 10, 2003, the Wireline Competition Bureau (WCB)
indicated that they concurred fully or in part with our three audit recommendations.
WCB’s response is included in its entirety in the Appendix to the report.

BACKGROUND INFORMATION

In accordance with the Inspector General Act of 1978, as amended, the Office of
Inspector General at the Federal Communications Commission has oversight
responsibilities for the Universal Service Fund (USF) as a program of the Federal
Communications Commission (FCC). The USF provides affordable access to specified
communications services for schools, libraries, rural health care providers, low-income
consumers and companies serving high-cost areas. On May 7, 1997, the FCC adopted a
Universal Service Order implementing the Telecommunications Act of 1996. Included in
this Order was the Schools and Libraries Funding Mechanism of the USF (hereinafter
known as the E-rate program) in which all eligible schools and libraries can receive
discounts from the USF on eligible communication services ranging from 20 to 90
percent, depending on economic need and location. The Universal Service
Administrative Company (USAC) is responsible for administering the Fund under the
direction of the FCC’s Wireline Competition Bureau. The Schools and Libraries
Division (SLD) of USAC administers the E-rate program.

USF discounts can be applied to three kinds of services and products:

•   Telecommunication services, including basic phone service.
•   Internet access.
•   Internal connections, including wiring and network equipment needed to bring
    information directly to classrooms or library patrons.

Arlington Public Schools is a school district that serves Arlington County, Virginia. FY
1999 commitments amount to $2,144,493 of which 51% was spent on internal
connections and 49% was spent on telecommunications services.

AUDIT OBJECTIVE AND SCOPE

The OIG has designed a program of audit oversight to provide FCC management with a
reasonable level of assurance that beneficiaries are complying with program rules and
that program controls are adequate to prevent fraud, waste and abuse. This audit was
conducted as part of that oversight program. The objective of this audit was to assess the
beneficiary’s compliance with the rules and regulations of the USF program and to
identify areas in which to improve the program.




                                            2
Report on Audit of the E-rate Program at the Arlington Public Schools

The scope of this audit was designed to test recipient compliance with program
requirements contained in Title 47, Part 54 of the Code of Federal Regulations (47 CFR
54.500 through 47 CFR 54.520) that include:

•   The beneficiary determines its discount percentage by the percentage of their student
    enrollment that is eligible for a free or reduced price lunch under the national school
    lunch program or a federally-approved alternative mechanism.
•   A process has been established to select the most cost effective service provider.
•   Equipment and services are purchased in accordance with applicable procurement
    rules and regulations, and the applicant has paid its portion of the pre-discounted
    costs.
•   Services rendered are consistent with what the beneficiary presented on its
    application for E-rate funds and were installed or provided before the installation
    deadline.
•   The beneficiary has adequate resources, as certified, to use the discounted services for
    which funding has been provided.
•   The beneficiary has an approved technology plan, as certified.

The period of our audit was from June 30, 1999 to July 1, 2000 which comprises FY
1999 of the E-rate program. We performed our audit at Arlington Public Schools, 1426
North Quincy Street, Arlington, Virginia and visited three schools within Arlington.

This audit was conducted in accordance with Government Auditing Standards issued by
the Comptroller General of the United States. As part of the scope of our audit, we
obtained an understanding of the specific management controls relevant to the E-rate
program. Because of inherent limitations, a study and evaluation made for the limited
purposes of our audit would not necessarily disclose all material weaknesses in the
control structure. However, we identified a significant management weakness as
discussed in the Audit Results section of this report and in Finding 1.

AUDIT FINDING AND RECOMMENDATION

Our audit of the use of E-rate funds at Arlington Public Schools disclosed that the
beneficiary is compliant in most respects with the requirements of the program.
However, the audit identified one area of noncompliance. One hundred and ninety-five
(195) pagers associated with a paging services contract were identified as funded and
paid for by SLD but were not compliant with the educational purpose requirement of e-
rate The funding disbursed for these pagers was $7,556 and is a potential funding
recovery.

AUDIT FINDING

Pager Service for 195 pagers was identified as paid for by SLD but not compliant with
the educational purpose requirements of e-rate funding.

                                             3
Report on Audit of the E-rate Program at the Arlington Public Schools


Title 47 CFR 254(h)(1)(B) requires that E-rate services provided to eligible schools and
libraries be used educational purposes. Compliance with this requirement is certified to
by the beneficiary on FCC Form 471. Paging service is eligible for discount when
provided for use at a place of instruction and for educational purposes or for use by
security personnel. The service is not eligible when provided for purposes other than
instruction or security.

Based on our review, we found that the pager service in question was for pagers held by
59 maintenance personnel, 59 custodial personnel, 75 ineligible administrative personnel,
one employee in the transportation department and one warehouse employee (195 in
total). We conclude that these services are ineligible for e-rate funding.

The total cost of the pager service contract for FY 1999 was $15,015, of which $9,610
was paid for by SLD. The total number of pagers serviced under this contract was 248.
The pagers in question represent 78.63% of the total pagers under the contract.
Therefore, we estimate the potential funding recovery for ineligible pagers service to be
$7,556.

RECOMMENDATIONS

Recommendation 1 of 3 - We recommend WCB direct USAC to recover $7,556 for
funding paid for ineligible pagers.

Recommendation 2 of 3 - We recommend that the Wireline Competition Bureau take
steps to ensure that funding requests are adequately reviewed in accordance with existing
program rules and implementing procedures to ensure that funding requests associated
with this area of noncompliance with program rules and regulations are not approved.

Recommendation 3 of 3 - We recommend that the Wireline Competition Bureau review
those program rules and implementing procedures governing the area of noncompliance
cited in this report to ensure that those program rules and implementing procedures are
adequate to protect the interests of the fund.




                                            4
Report on Audit of the E-rate Program at the Arlington Public Schools



          FEDERAL COMMUNICATIONS
                COMMISSION

             OFFICE OF INSPECTOR GENERAL




              Report on Audit of the E-rate Program at the
                       Arlington Public Schools

                          Report No. 02-AUD-02-04-12


                   APPENDIX – Management Response




                                           5
